Audit Report




OIG-08-044
PRIVATE COLLECTION AGENCIES: Linebarger, Goggan, Blair &
Sampson, LLP, Needs to Improve Compliance with FMS’s Debt
Compromise Requirements
September 26, 2008



Office of
Inspector General
Department of the Treasury
Contents


Audit Report..................................................................................................... 1

    Background ................................................................................................. 2

    Finding and Recommendations ....................................................................... 3

        FMS Should Ensure Linebarger’s Enhanced Compliance With PCA Contract
        Requirements and Policy for Debt Compromise............................................ 3

        Recommendations.................................................................................... 6

Appendices,

    Appendix     1:      Objective, Scope, and Methodology .......................................... 7
    Appendix     2:      Results of Review—Individual Cases ......................................... 9
    Appendix     3:      Federal Debt Collection Laws, Regulations, and Guidance.......... 11
    Appendix     4:      Management Response ......................................................... 12
    Appendix     5:      Major Contributors to This Report ........................................... 14
    Appendix     6:      Report Distribution.................................................................15

Abbreviations

    DMS                  Debt Management Services
    FMS                  Financial Management Service
    Linebarger           Linebarger, Goggan, Blair & Sampson, LLP (of Houston, TX)
    OIG                  Office of Inspector General
    PCA                  private collection agency
    TOP                  Treasury Offset Program
    Treasury             Department of the Treasury




                         Linebarger Needs to Improve Compliance with FMS’s
                         Debt Compromise Requirements (OIG-08-044)                                           Page i
This Page Intentionally Left Blank.
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General




                      Judith R. Tillman
                      Commissioner
                      Financial Management Service

                      We audited compliance by Linebarger, Goggan, Blair & Sampson,
                      LLP (Linebarger),1 a private collection agency (PCA) under contract
                      with the Financial Management Service (FMS), with requirements
                      for debt compromise.2 Our objective was to determine, for
                      compromises on delinquent federal nontax debt, whether
                      Linebarger is

                      1. following PCA contract requirements, including (a) attempting
                         to collect the full amount due before considering a compromise
                         and (b) compromising at authorized levels; and

                      2. documenting each compromise adequately, providing proper
                         justification, and retaining evidence for the required period.

                      Our audit of Linebarger is part of a series of planned audits of PCAs
                      and FMS’s oversight of debt compromise. Appendix 1 contains a
                      description of our objective, scope, and methodology.

                      In brief, we found that Linebarger was not following some PCA
                      contract requirements and FMS policy, including documentation
                      provisions for debt compromise. We are making two
                      recommendations to address these matters. In the management
                      response, provided as Appendix 4, FMS concurred with these
                      recommendations.




1
 This firm was formerly Linebarger, Heard, Goggan, Blair, Graham & Sampson, LLP.
2
 A compromise plan is a payment agreement that allows the debtor to satisfy a debt by paying an
amount less than the total balance due, typically in a single payment.


                      Linebarger Needs to Improve Compliance with FMS’s
                      Debt Compromise Requirements (OIG-08-044)                               Page 1
Background

             As the federal government’s financial manager, FMS implements
             the government’s delinquent debt program, collecting an annual
             average of more than $3 billion in delinquent debt over the last
             4 fiscal years through two main components, the Treasury Offset
             Program (TOP) and the Cross-Servicing Program.

             TOP, a centralized offset program, enables the matching of
             delinquent debtor records referred by federal program agencies and
             states against files for federal payments, such as income tax
             refunds, federal employment salary payments, and Social Security
             benefit payments. When a match occurs, the payment is
             intercepted and offset up to the amount of the debt.

             Cross-servicing is the centralized debt collection process for
             managing delinquent debts referred from federal program agencies
             through a variety of debt collection mechanisms, such as issuing
             demand letters, executing repayment agreements, referring
             accounts to TOP for administrative offset, referring debts to the
             PCAs, and reporting debts to credit bureaus.

             The FMS Debt Management Services (DMS) provides federal
             agencies with debt collection and management services. DMS
             leads the development and implementation of governmentwide
             debt management policies. It accomplishes its mission of improving
             the quality of the federal government's financial management in
             part by increasing the collection of delinquent debt owed to the
             federal government and by providing debt management services to
             all federal agencies.

             Once DMS determines that debtors cannot be located or are
             unwilling to resolve debts in an acceptable manner, the debts may
             be sent to the PCAs, which are private sector companies that
             specialize in collecting delinquent debt. The PCAs will attempt to
             find and contact debtors by searching various databases, making
             telephone calls, and sending collection letters. Once debtors are
             located and contacted, the PCAs will encourage them to satisfy
             their debts.



             Linebarger Needs to Improve Compliance with FMS’s
             Debt Compromise Requirements (OIG-08-044)                     Page 2
                       On March 12, 2007, DMS awarded a Treasury debt collection
                       contract to Linebarger, to increase the recovery of, and to resolve,
                       nontax federal debts.3 The contract is a renewable 1-year contract
                       with four 1-year options available. Linebarger also provided debt
                       collection services under a prior contract with FMS.

                       For the 1-year period ending January 31, 2008, FMS referred
                       $696 million to Linebarger, which collected $16.7 million and
                       administratively resolved $106 million. The total amount forgiven
                       for the 132 compromise agreements for which the forgiven amount
                       was in excess of $2,000 processed by Linebarger during the 1-year
                       period ending January 31, 2008, was $4.8 million.

                       Debt collection efforts are governed by various federal and state
                       laws, including the Debt Collection Improvement Act of 1996 and
                       the Federal Claims Collection Standards. Appendix 3 contains a
                       brief summary of federal debt collection laws, regulations, and
                       guidance. DMS’s Private Collection Division monitors PCA
                       activities.

Finding and Recommendations

                       FMS Should Ensure Linebarger’s Enhanced Compliance
                       With PCA Contract Requirements and Policy for Debt
                       Compromise

                       Linebarger was not following some PCA contract requirements and
                       FMS policy, including documentation provisions for debt
                       compromise, as discussed below. We provided a copy of portions
                       of our discussion draft to Linebarger, which responded that it has
                       taken steps to address the findings.

                       Appendix 2 provides a summary of our results on a case-by-case
                       basis for the 17 cases in our sample, randomly selected from a

3
 A debt may be administratively resolved for a variety of reasons. For example, collection efforts may
be discontinued because of a debtor’s death, disability, or bankruptcy or because a debtor entity has
gone out of business. A debt may also be resolved if the debtor pays or otherwise satisfies the
delinquent debt in full, pays the amount of a compromise reached, or enters into a repayment
agreement under terms acceptable to the creditor agency.

                       Linebarger Needs to Improve Compliance with FMS’s
                       Debt Compromise Requirements (OIG-08-044)                                  Page 3
                       universe of the 132 compromise agreements that had an active
                       status during the audit period and had amounts forgiven greater
                       than $2,000. It should be noted that, for the reason stated in
                       note e of appendix 2, we considered 16 cases in reporting our
                       results below regarding inadequate documentation.

                       Inadequate Documentation of Steps in Collection Process

                       Before compromising a debt, the contract requires a PCA to take
                       the following steps, in order: (1) attempt to collect the full amount
                       in one payment, (2) attempt to collect the full amount in multiple
                       payments, and (3) attempt to collect a partial payment amount in
                       one or multiple payments.4 The PCA is also required to include in
                       its system a separate justification for being unable to collect in
                       accordance with each applicable step. If the PCA is unsuccessful in
                       these efforts, it may then attempt to negotiate a compromise
                       payment amount with the debtor.

                       None of the 16 cases in our sample had documentation for step 3
                       (attempt to collect a partial payment). Without documentary
                       evidence of its efforts to establish partial payment agreements
                       instead of compromise agreements, Linebarger has not ensured
                       FMS that $333,000 in compromised debt should have been
                       forgiven.5 In addition, documentation was not adequate for step 2
                       (attempt to collect the full amount in multiple payments)
                       in 11 cases.

                       Linebarger officials stated that the collectors were not clearly
                       documenting the steps because the collectors were summarizing
                       their discussions at the end of the negotiation process, instead of
                       documenting them during the process. Without proper
                       documentation by a PCA, a reviewer would not be able to
                       determine whether the PCA adhered to the requirements of the
                       contract and acted in the best interests of the government.




4
  In a partial payment agreement, the government suspends active collection while the debtor makes
payments toward the balance due. Unlike a debt compromise, a partial payment agreement does not
release the debtor's obligation to pay the full balance of the debt; the debt will remain in TOP so that
the debtor's federal payments may be offset and applied to the debt balance.
5
  See appendix 2 for an explanation of this amount.

                       Linebarger Needs to Improve Compliance with FMS’s
                       Debt Compromise Requirements (OIG-08-044)                                     Page 4
In responding to this finding, Linebarger indicated that it has
initiated and installed additional processes for setting up
and documenting payment plans, including compromises, in
its collection system. The specific notes that are written to the
collection system are reflected in updated system documentation.

Missing 30-Day Notice on Compromise Agreement Letters

According to the contract, the PCA is to include in all accepted
payment agreements the provisional notice that failure by the
debtor to bring the account current within 30 calendar days from
the payment due date will result in (1) the agreement becoming null
and void and (2) the original amount of the debt being reinstated
and due immediately, minus any payments and plus any accruals.

None of the 17 compromise agreement letters contained in the files
of our sample cases included the required 30-day notice. When
asked about this, Linebarger officials stated that DMS approved its
compromise letters. Linebarger also said that the compromise
agreement letters state that the payment is delinquent and the
compromise offer is withdrawn if payment is not made by the due
date. As a result, the 30-day grace period is not offered. DMS told
us that it had determined that Linebarger had the required language
in its compromise agreement letters for payment in installments,
but not for 1-time payments. This was an oversight on the part of
DMS, which it has asked Linebarger to address as soon as
possible.

We found that letters under both the prior and the current contract
did not include the required language. Failure to provide debtors
with a 30-day notice is inconsistent with PCA contract
requirements and could cause confusion and unfairness.

In responding to this finding, Linebarger noted that it has added
the 30-day notice provision to the compromise agreement letter
and submitted it to the Contracting Officer's Technical
Representative for approval.




Linebarger Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-08-044)                      Page 5
Recommendations

We recommend that FMS take action to ensure that Linebarger

1. conducts additional training or takes other corrective action to
   ensure that its employees properly document the steps taken
   prior to compromise, and
2. includes the 30-day provision in all compromise agreement
   letters.

Management Response

FMS concurred with our recommendations. The DMS Private
Collection Division held a Debt Collection Forum for representatives
of each of the five PCAs under the current contract, including
Linebarger. Payment agreement standards and documentation
requirements were a major focus. DMS plans to verify that each
PCA has conducted additional training and may travel to PCA sites
to train collection staff. In addition, Linebarger is now using a
revised compromise agreement letter with the required 30-day
provision.

OIG Comment

We believe that the actions taken or planned by FMS address the
intent of the recommendations.

                               *******

We appreciate the courtesies and cooperation provided to our staff.
If you wish to discuss this report, you may contact me at
(202) 927-6512 or Maria V. Carmona, Audit Manager,
at (202) 927-6345.




Michael J. Maloney
Director, Fiscal Service Audits




Linebarger Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-08-044)                       Page 6
                     Appendix 1
                     Objective, Scope, and Methodology




                     Our audit objective was to determine if, for compromises on
                     delinquent federal nontax debt, the private collection agencies
                     (PCA) were

                     1. following PCA contract requirements, including (a) attempting
                        to collect the full amount due before considering a compromise
                        and (b) compromising at authorized levels; and

                     2. documenting each compromise adequately, providing proper
                        justification, and retaining evidence for the required period

                     This report provides the results of our review for Linebarger,
                     Goggan, Blair & Sampson, LLP (Linebarger), one of the PCAs with
                     which FMS has contracted for debt collection services. We plan
                     to issue additional reports to address the results of our reviews of
                     the other PCAs.

                     We began our fieldwork for the overall audit in February 2008 and
                     completed it in June 2008. Our work was performed at the
                     Financial Management Service (FMS) offices in Washington, DC.
                     This included reviewing Linebarger records that were sent to FMS.

                     To accomplish our objective, we reviewed applicable laws and
                     regulations. We also considered policy guidance given to the PCAs
                     by FMS. This included both current and prior versions of PCA
                     contract documents and FMS policy issuances, such as the Private
                     Collection Agency Policy & Procedures Manual and technical
                     bulletins.

                     We considered how FMS monitors PCA activity, reviewing
                     the compliance checklists completed by FMS and supporting
                     documentation obtained by FMS as it oversees the PCAs. We
                     also reviewed the most recent compliance report for each of the
                     PCAs under the prior contract.6

                     We interviewed FMS staff in the Debt Management Services
                     Private Collection Division, including the contracting officer’s
                     technical representative for the PCAs.

6
 FMS compliance reviews under the current contract began in May 2008. The final compliance review
under the prior contract was completed in 2006, with no reviews done in 2007.

                     Linebarger Needs to Improve Compliance with FMS’s
                     Debt Compromise Requirements (OIG-08-044)                              Page 7
                       Appendix 1
                       Objective, Scope, and Methodology




                       We also evaluated computer-generated data files on debt
                       compromises from the FedDebt system, which is the current cross-
                       servicing system. FedDebt is a Web-based application used to
                       create and update debt and debtor information and monitor
                       financial transactions.

                       In addition, we audited a statistical sample of debt compromises
                       under both the prior and current FMS contracts with Linebarger.
                       The sample of 17 debt compromises was randomly generated
                       from a universe of 132 compromise agreements negotiated by
                       Linebarger. The 132 agreements all had an active status during the
                       audit period and had amounts forgiven greater than $2,000.7 It
                       should be noted that, for the reasons explained in note d of
                       appendix 2, we considered 16 cases in reporting our results
                       regarding inadequate documentation.

                       These agreements were posted to the FedDebt system from
                       February 2007 through January 2008, the most recent 1-year
                       period available at the time that we requested the automated data.
                       The following parameters were used to determine the size of the
                       sample: 95 percent confidence level, 3.5 percent expected error
                       rate, and ±3.5 percent sample precision.

                       We examined documentation for these debts to ensure that proper
                       justification was in place to support each compromise agreement.

                       We conducted this performance audit in accordance with generally
                       accepted government auditing standards. Those standards require
                       that we plan and perform the audit to obtain sufficient, appropriate
                       evidence to provide a reasonable basis for our findings and
                       conclusions based on our audit objectives. We believe that the
                       evidence obtained provides a reasonable basis for our finding and
                       conclusions based on our audit objectives.




7
 The amount forgiven included the outstanding principal, interest, administrative charges and penalties
at the time each agreement became active, and potential PCA and DMS fees, as well as potential
PCA bonus charges, less the amount to be paid by the debtor. Amounts forgiven less than or equal
to $2,000 were considered immaterial for this audit.

                       Linebarger Needs to Improve Compliance with FMS’s
                       Debt Compromise Requirements (OIG-08-044)                                  Page 8
         Appendix 2
         Results of Review—Individual Cases




                                                                      A                    B
                                                                                      Comp.
              Outstanding                                         Inadequate          letter
              balance at                                        documentation         missing
              date of        Compromise     Amount           Step Step Step           30-day
Ref. a        compromise     amount         forgiven         1b      2      3         notice
A                  17,103        10,200             6,903             X       X            X
B                  23,159         7,000            16,159             X       X            X
C                  91,827        53,322            38,505             X       X            X
D                  19,162         9,538             9,624             X       X            X
E                  23,583        15,000             8,583             X       X            X
F                  85,262        38,383            46,879                     X            X
G                  23,765        17,314             6,451             X       X            X
H                  90,342         7,058            83,284             X       X            X
Ic                 52,064        25,077            26,987                     X            X
J                   6,690         3,983             2,707             X       X            X
K                   8,527         6,463             2,064             X       X            X
L                  23,170        18,102             5,068                     X            X

M                 11,055          6,000              5,055                      X        X
Nd                 7,713          5,500              2,213                               X
O                 88,444         36,000             52,444            X         X        X
P                 31,027         20,784             10,243                      X        X
Q                 66,779         27,389             39,390           X          X        X
    Total       $669,672       $307,113          $362,559            11         16       17
Less I, N                                         - 29,200
Amt. Usede                                       $333,359

Notes:

     a. Cases A- L were under the prior contract; cases M- Q under the current contract.

     b. Before compromising a debt, the contract requires a PCA to take the following
        three steps, in order:

             Step 1. Attempt to collect the full amount in one payment.

             Step 2. Attempt to collect the full amount in multiple payments.

             Step 3. Attempt to collect a partial payment amount in one or multiple
                      payments.

     c. Case I, which initially was a part of our sample of compromise agreements, was
        manually terminated. A new agreement was reached for payment of the full
        balance. Because another type of payment agreement was reached, we are not
        considering this case in the computation of amount forgiven.




         Linebarger Needs to Improve Compliance with FMS’s
         Debt Compromise Requirements (OIG-08-044)                                    Page 9
   Appendix 2
   Results of Review—Individual Cases




d. Settlement on Case N was negotiated by the federal program agency. Linebarger
   was subsequently instructed by FMS on how to proceed in this matter and,
   consequently, was not afforded the opportunity to collect the full amount. For
   this reason, we are not considering this case with reference to the adequacy of
   documentation (column A in the table), or for the computation of amount
   forgiven.

e. The amount used in our discussion in the body of the report of inadequate
   documentation does not include the forgiven amounts for Cases I and N, for the
   reasons discussed in notes c and d above.




   Linebarger Needs to Improve Compliance with FMS’s
   Debt Compromise Requirements (OIG-08-044)                               Page 10
Appendix 3
Federal Debt Collection Laws, Regulations, and Guidance




The following are brief statements of the purpose of selected
federal debt collection laws, regulations, and guidance:

Debt Collection Improvement Act of 1996

To centralize the governmentwide collection of delinquent debt and
give Treasury significant new responsibilities in this area and to
require that agencies take prompt action to recover debts and
transfer all nontax debts delinquent more than 180 days to
Treasury for administrative offset and cross-servicing.

Fair Debt Collection Practices Act

To eliminate abusive debt collection practices by debt collectors, to
ensure that debt collectors who refrain from using abusive debt
collection practices are not competitively disadvantaged, and to
promote consistent state action to protect consumers against debt
collection abuses.

Federal Claims Collection Act and Standards

To set administrative procedures with respect to collection of debts
owed to the United States, including the criteria for accepting
installment payments and compromise agreements.

Privacy Act

To restrict the disclosure of personal information about individuals
and govern the handling of such information by the federal
government and its contractors.

OMB Circular A-129–Policies for Federal Credit Programs and
Nontax Receivables

To prescribe policies and procedures for justifying, designing, and
managing federal credit programs and for collecting nontax
receivables.




Linebarger Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-08-044)                       Page 11
Appendix 4
Management Response




Linebarger Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-08-044)           Page 12
Appendix 4
Management Response




Linebarger Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-08-044)           Page 13
Appendix 5
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Maria V. Carmona, Audit Manager
Kenneth G. Dion, Audit Manager
Horace A. Bryan, Auditor
Gerald H. Kelly, Auditor
Myung G. Han, Management Analyst
Jenny Hu, Referencer
Gerald J. Steere, Referencer




Linebarger Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-08-044)             Page 14
Appendix 6
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Financial Management Service

Assistant Commissioner, Debt Management Services
Director, Finance and Internal Control Division
Manager, Internal Control Branch (OIG Liaison)

Office of Management and Budget

OIG Budget Examiner




Linebarger Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-08-044)                 Page 15
